No.

United States Court of Appeals for the Third Circuit
C.A. No.18-2825

United States District Court
for the District of New Jersey,
No. 2:14-cv-04268 (KM)
IN_THE SUPREME COURT OF THE UNITED STATES

DARIUS MURPHY,
Petitioner,

vs.
ADMINISTRATOR EAST JERSEY STATE PRISON,

ATTORNEY GENERAL NEW JERSEY,
Respondents.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, by and through his attorney of record,
Mary Gibbons, hereby seeks leave to proceed in forma
pauperis. Petitioner has previously been found to
qualify for the appointment of counsel pursuant to the
Criminal Justice Act (18 U.S.C. ยง3006A), and the
undersigned counsel was so appointed in the United
States Court of Appeals for the Third Circuit.

Dated: October 4, 2021 Respectfully submitted,

CW
Mary GibORS, Esq.

 
